n
No.

o? I ikX

dy Vi
a
Supreme Court, U S.
FILED

IN THE

JUN 2 2 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

Bo Peng
Petitioner
Vs.

F.M. Tarbell Co.
Respondent

On Petition For A Writ Of Certiorari
TO The 2nd Appellate District Of California Court of Appeal

PETITION FOR WRIT OF CERTIORARI

Bo Peng
Pro Per
2332 Crystal Pointe
Chino Hills, CA 9170
951-423-0594

Question(s) Presented

The value of this case is over tens of millions of dollars. Defendant obtained huge
amount of illegal proceeds through illegal business pattern: wage theft, wrongful
termination, willful misclassification. Defendant used the large amount of illegal proceeds,
to purchase judicial decision in favor of defendant, to influence and corrupt judges in the
judicial system, and to form a multi-judge corruption ring.
Facing the emergence of the reality of the multi-judge corruption ring, how does U.S.
Supreme Court severely punish business who obtained huge illegal gains through illegal
business pattern and stop the formation and spread of the multi-judge corruption ring?
“Judicial corruption can be understood as the selling and purchasing of legal decisions.”
(STRATOS PAHIS, Corruption in Our Courts: What It Looks Like and Where It Is Hidden
(2009) 118 THE YALE LAW JOURNAL 1900, 1903)
The bribery of judges has a direct impact on the very essence of the judicial function,
which is to deliver an independent, fair and impartial decision. The consequence is
unfairness and unpredictability in the legal process from start to finish, and a systematic
undermining of the rule of law. Corruption in the judiciary is all the more damaging
because of the important role the judiciary is expected to play in combating this very evil.
As a consequence judicial corruption hampers national development, and the institution at
the heart of the fight against corruption is disabled.(TI, Global Corruption Report 2007
supra P62)
“Denial of a trial by jury to one constitutionally entitled is “both reversible error and an
act in excess of jurisdiction”, "This '"denial of a trial by jury to one constitutionally entitled
thereto constitutes a miscarriage of justice and requires a reversal of the judgment, tint
however, 2nd Appellate District Of California Court of Appeal did not reverse the judgment;
“court reversed sanctions order when order did not recite in detail the conduct or
circumstances justifying it”, however, 2nd Appellate District Of California Court of Appeal
did not reverse the sanction order; “a biased decision maker is constitutionally
unacceptable,” however, Justice Hoffstadt committed fraud upon the court to deny
constitutional entitled jury trial; he undermined impartiality mechanism of randomly
selecting cases; he undermined Judge’s passive role; he was highly partial to defendant; he
could not remain impartial; he served the interest of defendant; and he refused to
disqualify himself.
How can U.S. Supreme Court make “Every constitutional provision is self-executing to
the extent that everything done in violation of it is void.” into reality?

“Every constitutional provision is self-executing to the extent that everything done in
violation of it is void.”( Katzberg v. Regents of University of California (2002) 127
Cal.Rptr.2d 482, 29 Cal.4th 300, 58 P.3d 339 .Constitutional Law 640)
Denial of a trial by jury to one constitutionally entitled thereto is “both reversible error
and an act in excess of jurisdiction” [Olivia N. v. National Broadcasting Co. (1977.) 74
CA3d 383, 389]
"This '"denial of a trial by jury to one constitutionally entitled thereto constitutes a
miscarriage of justice and requires a reversal of the judgment.'"" (Arciero Ranches v. Meza
(1993.) 17 Cal.App.4th 114, 126, 21 Cal. Rptr.2d 127, quoting People v. One 1941
Chevrolet Coupe (1951.) 37 Cal.2d 283, 300, 231 P.2d 832..)
[The U.D. Registry, Inc. (2003) 105 Cal. App. 4th 1382, 1392 (court reversed sanctions
order when order did not recite in detail the conduct or circumstances justifying it)]
“Not only is a biased decisionmaker constitutionally unacceptable, but "our system of
law has always endeavored to prevent even the probability of unfairness." In re Murchison,
supra at 349 U. S. 136; cf. Turney v. Ohio, 273 U. S. 510, 273 U. S. 532 (1927). In pursuit
of this end, various situations have been identified in which experience teaches that the
probability of actual bias on the part of the judge or decisionmaker is too high to be
constitutionally tolerable. Among these cases are those in which the adjudicator has a
pecuniary interest in the outcome, [Footnote 14] and in which he has been the target of
personal abuse or criticism from the party before him. [Footnote 15] “(Withrow v. Larkin,
421 U.S. 35 (1975))
A judge who departs from the essentially passive role that is characteristic of the
adversary system deprives civil litigants of due process of law.(Gardiner v. A.H. Robins
Company, Inc., 747 F.2d 1180, 1191 (8th Cir. 1984). at 1183, 1191.)
Should a judge not disqualify himself, then the judge is violation of the Due Process
Clause of the U.S. Constitution. United States v. Sciuto, 521 F.2d 842, 845 (7th Cir. 1996)
("The right to a tribunal free from bias or prejudice is based, not on section 144, but on the
Due Process Clause.").

Judgment is a void judgment when court acted in a manner inconsistent with due
process, Void order which is one entered by court which lacks jurisdiction over parties or
subject matter, or lacks inherent power to enter judgment, or order procured by fraud.
Fraud destroys the validity of everything into which it enters. However, in the real world,
judges from the multi-judge corruption ring made the void judgment valid and made every
invalid thing valid.
How does U.S. Supreme Court uphold the rule of law to stop the judicial usurpation and
oppression from multi-judge corruption ring?
“Judgment is a void judgment if court that rendered judgment lacked jurisdiction of the
subject matter, or of the parties, or acted in a manner inconsistent with due process, Fed.
Rules Civ. Proc., Rule 60(b)(4),28 U.S.C.A., U.S.C.A. Const. Amend. 5 Kiugh v. U.S., 620
F.Supp. 892 (D.S.C. 1985)"
n

r*

Void order which is one entered by court which lacks jurisdiction over parties or
subject matter, or lacks inherent power to enter judgment, or order procured by fraud, can
be attacked at any time, in any court, either directly or collaterally, provided that party is
properly before court, People ex rd. Brzica v. Village of Lake Barrington, 644 N.E.2d 66
(Ill.App. 2 Dist. 1994).
The affirmance of a void judgment upon appeal imparts no validity to the judgment, but
is itself void by reason of the nullity of the judgment appealed from. ( Pioneer
Land Co. v. Maddux, 109 Cal. 633 [50 Am. St. Rep. 67, 42 P. 295].)
“Fraud destroys the validity of everything into which it enters,” (Nudd v. Burrows.
Supra).
Judgment without such citation and opportunity lacks all the attributes of a judicial
determination; it is judicial usurpation and oppression and can never be upheld where
justice is fairly administered. Powell v. State of Ala., 287 U.S. 45, 53 S. Ct. 55, 77 L. Ed.
158, 84A.L.R. 527 (1932)

m

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
Related Cases
Bo Peng vs. F.M. Tarbell Co. No. 19STCP00416, Los Angeles County Superior court of
California. Judgment entered at Feb. 3, 2020
Bo Peng vs. F.M. Tarbell Co. No. B304763, 2nd Appellate District Of California Court of
Appeal. Opinion entered at Dec. 24, 2020
Bo Peng vs. F.M. Tarbell Co. No. S266512, Supreme Court Of The State Of California.
Order entered at Mar. 24, 2021
The following are orders, amended judgment and opinion regarding attorney’s fees and
costs; which based on the judgment of B304763; which were made without conducting the
trial of labor code § 98.2 and 5 claims; which were made in violation of constitutional due
process: thus which are invalid; which were rendered through fraud upon the court; which
are also invalid; and which can be attacked at anytime and anywhere.
According to CRC Rule 8.104, "judgment" includes an appealable order if the appeal is
from an appealable order.
"A judgment absolutely void upon its face may be attacked anywhere, directly or
collaterally, whenever it presents itself, either by parties or strangers. It is simply a
nullity, and can be neither the basis nor evidence of any right whatever. ..." (Forbes v.
Hyde, 31 Cal. 342, 347; )Texas Co. v. Bank of America etc. Assn., 5 Cal. 2d 35, 41 [53 P.2d
127].)
Bo Peng vs. F.M. Tarbell Co. No. 19STCP00416, Los Angeles County Superior court of
California. Order entered at July. 23, 2020
Bo Peng vs. F.M. Tarbell Co. No. 19STCP00416, Los Angeles County Superior court of
California. Order entered at Aug. 17, 2020

IV

Bo Peng vs. F.M. Tarbell Co. No. 19STCP00416, Los Angeles County Superior court of
California. Amended judgment entered at Aug. 18, 2020
Bo Peng vs. F.M. Tarbell Co. No. B307484, 2nd Appellate District Of California Court of
Appeal. Opinion entered at May. 27, 2021
Bo Peng vs. F.M. Tarbell Co. No. B307484, 2nd Appellate District Of California Court of
Appeal. Order entered at Jun. 15, 2021

v

Table of Contents

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
6

STATEMENT OF THE CASE

6

I.

Introduction

II.

The legal basis of the appellant

6
10

A.

Legal principle and 5 claims of this case

10

B.

California Supreme Court’s interpretation regarding Labor Code §98.2.

11

C.

Law findings

12

D.

Fact finding: Bo Peng is an employee of F.M. Tarbell Co.

12

III. The legal basis of the defendant and the judges who joined the
defendant

13

A.

Independent contractor

13

B.

Independent contractor agreement

14

C.

Determination of Labor commissioner

14

IV. The formation of multi-judge corruption ring who served the
interest of the defendant.

16

A.

Defendant faced losing this case and huge fine from government.

B.

Defendant used large amount of illegal gains to corrupt multiple judges and made two unlawful

16

orders

17

C.

Multiple judges assessed the risk;

18

D.

Multiple Judges joined the defendant to form multi-judge corruption ring to serve the interests of

defendant.

18
vi

E.

The act of the member of multi-judge corruption ring

19

F.

Appellant filed writ of mandate

20

G.

Corrupt Judge Moreton denied constitutionally entitled jury trial.

21

H.

Corrupt Judge Moreton rendered void and absurd judgment

22

V.

Without conducting trial by Labor Code §98.2 and 5 claims,
corrupt Judge Moreton seriously violated constitutional due
process, thus the judgment is void
A.

23

In the moral sense, Defendant committing felony, wage theft can never becomes a prevailing party

because Wage theft is crime and caused public several times more harm than burglary and bank
robbery. Judgment is against public policy, against the universal maxim of “pay the debt you owe”, and
subverted the judicial conscious.
B.

23

In the legal sense, judgment rendered for the purpose of corruption in violation of due process was

void.
C.

23
In the factual evidence sense, based on defendant admitted Evidence 500, defendant and Judge

Moreton who joined defendant:

24

VI. On appeal, Justice Hoffstadt well calculated to systematically
undermine 3 constitutional impartiality mechanism, namely,
impartiality mechanism of random selection of cases,
impartiality mechanism of automatic disqualification and
impartiality mechanism of jury trial.

24

VII. Regarding orders and amended judgment rendered by Judge
Linfield

28

A.

Regarding attorney’s fees motion

B.

Orders and amended judgment rendered by Judge Linfield who committed fraud upon the court

28

are void

29

C.

Corrupt Judge Linfield’s orders and amended judgment are void.

30

D.

Corrupt Judge Linfield committed fraud upon the court, which makes everything invalid

31

Vll

VIII.

Justice Hoffstadt conspired with corrupt Judge Linfield to

finally accomplished defendant’s will extorting the attorney’s
fees from appellant, from which Justice Hoffstadt benefited
from.

33

REASONS FOR GRANTING THE PETITION

37

CONCLUSION

40

Vlll

INDEX OF APPENDICES
APPENDIX A

Unpublished Opinion entered at Dec. 24, 2020, No. B304763, 2nd
Appellate District Of California Court of Appeal.

APPENDIX B

Judgment entered at Feb. 3, 2020, No. 19STCP00416, Los Angeles
County Superior court of California.

APPENDIX C

Order entered at Mar. 24, 2021, No. S266512, Supreme Court Of The
State Of California.

APPENDIX D

Order entered at Jan. 5, 2020, No. B304763, 2nd Appellate District Of
California Court of Appeal.

APPENDIX E

Petition for rehearing, B304763 appellant.

APPENDIX F

Petition for Review, B304763 appellant

APPENDIX G

Unpublished Opinion entered at May. 27, 2020, No. B307484, 2nd
Appellate District Of California Court of Appeal.

APPENDIX H

Order entered at July. 23, 2020, No. 19STCP00416, Los Angeles
County Superior court of California.

APPENDIX I

Order entered at Aug. 17, 2020, No. 19STCP00416, Los Angeles County
Superior court of California.

APPENDIX J

Amended judgment entered at Aug. 18, 2020, No. 19STCP00416, Los
Angeles County Superior court of California.

APPENDIX K

Petition for rehearing, B307484 appellant

APPENDIX L

Order entered at Jun. 15, 2020, No. B304763, 2nd Appellate District Of
California Court of Appeal.

IX

TABLE OF AUTHORITIES CITED
Cases
Borello, supra, 48 Cal.3d at pp. 349, 358-359; Rutherford Food, supra, 331 U.S. at p. 729.
14
cf. Turney v. Ohio, 273 U. S. 510, 273 U. S. 532 (1927)
Collier & Wallis, supra, 9 Cal.2d at 202, 205

4
11, 14

Forbes v. Hyde, 31 Cal. 342, 347;

ii

H.K. Porter Co. v. Goodyear Tire & Rubber Co., 536 F.2d 1115, 1119 (6th Cir. 1976)9, 15
Hazel-Atlas Glass Co. v. Hartford Empire Co. [322 U.S. 238, 246 (1944)]
In re Murchison, supra at 349 U. S. 136

3, 37
4

KC v. State, 2015 WY 73, 351 P.3d 236 (Wyo. 2015)
Kenner v. C.I.R., 387 F.3d 689 (1968)

10, 24
26

Kenner v. C.I.R., 387 F.3d 689 (1968); 7 Moore's Federal Practice, 2d ed., p. 512, T| 60.23
26
Kiugh v. U.S., 620 F.Supp. 892 (D.S.C. 1985)

24

Nudd v. Burrows. Supra

9, 15

People v. Zajic, 88 Ill.App.3d 477, 410 N.E.2d 626 (1980)

5

Resnik v. Anderson & Miles supra

13, 30

Resnik v. Anderson & Miles,

13, 23

Rockefeller Technology Investments (Asia) VII v. Changzhou SinoTvpe Technology Co..
Ltd. (2018) 24 Cal. Ann. 5th 115. 134, 233 Cal. Rptr, 3d 814

19

S. G. Borello & Sons, Inc. v. Department of Industrial Relations (1989.) 48 Cal.3d 341
........................................................................................................................................... 6, 13
x

Texas Co. v. Bank of America etc. Assn., 5 Cal. 2d 35, 41 [53 P.2d 127]

li

United States v. Sciuto, 521 F.2d 842, 845 (7th Cir. 1996)

25

Withrow v. Larkin, 421 U.S. 35 (1975)

5

Statutes
(§ 10137)

12

(§ 10160

12

(§ 10177, subd. (h)

12

§ 10137

12

§ 10160

12

§ 98.2

n

Bus. & Prof. Code, § 10132

11, 12

Fed. Rules Civ. Proc., Rule 60(b)(4),28 U.S.C.A., U.S.C.A. Const. Amend. 5

24

labor code §98.2

9, 10, 31, 39

Labor code §98.2

19, 21, 22, 33

xi

OPINIONS BELOW

The case from state courts: The opinion of the highest state court to review the merits
appears at Appendix A to the petition and is unpublished.
The case from state courts: The opinion of the highest state court to review the merits
appears at Appendix G to the petition and is unpublished.

JURISDICTION
For cases from state courts: The date on which the highest state court decided my case
was Mar. 24, 2021. A copy of that decision appears at Appendix C .
This petition for a writ of certiorari is on 6/22/21. California Supreme court denied
discretionary review on 3/24/21. Pursuant to Rule 13: Review on Certiorari: Time for
Petitioning, this petition for writ of certiorari is on time.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
The 14th amendment to the U.S. Constitution, which provides, in part: No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the equal protection of
the laws.
Justice Hoffstadt is not the court. A judge is an officer of the court, as well as are all
attorneys. A state judge is a state judicial officer, paid by the State to act impartially and
lawfully. A federal judge is a federal judicial officer, paid by the federal government to act

1

impartially and lawfully. State and federal attorneys fall into the same general category
and must meet the same requirements. A judge is not the court. People v. Zajic, 88
Ill.App.3d 477, 410 N.E.2d 626 (1980)
Here special thanks the honest judges with integrity for providing good cases authority,
to help identify justice and injustice, legal and illegal, morals and immorality.
Without conducting trial with legal principle of Labor Code §98.2 and five claims of this
case, member of multi-judge corruption ring, Judge Moreton violated constitutional due
process1: he made wage theft, defendant who committed felony, as the prevailing party; on
which basis, he deprived the appellant of the wages2 property $28,268.01 on which
appellant depended;
Justice Hoffstadt, who is higher up in multi-judge corruption ring, fabricated a whole
jury trial with nonexistent CCP 581c motion to deny the constitutionally entitled jury trial;
thus, he, as Justice, departed the essentially passive role that is characteristic of the
adversary system; he violated constitutional due process3; meanwhile he violated

1 “The process due at any given time must reflect the nature of the proceeding and the interests involved.”
KC v. State, 2015 WY 73, 351 P.3d 236 (Wyo. 2015).
2 Court have found a sufficient property interest to trigger application of the due process clause: Wages.
Sniadach v Family Finance Corp of Bay View (1969) 395 U.S. 337.
3 A judge who departs from the essentially passive role that is characteristic of the adversary system
deprives civil litigants of due process of law.(Gardiner v. A.H. Robins Company, Inc., 747 F.2d 1180, 1191
(8th Cir. 1984). at 1183, 1191.)

2

constitutional due process by deliberately making an opinion on non subject of action4; he
made a void opinion to affirm in full and support the void judgment rendered for the
corruption purpose by corrupt Judge Moreton; and he violated 14th Amendment to the
U.S. Constitution.
Appellant made petition for review to California Supreme Court. California Supreme
court was mute and denied the appellant’s petition. Appellant has no choice, but to file
this petition for a writ of certiorari to U.S. Supreme Court Supreme Court, please grant
this petition. “Furthermore, tampering with the administration of justice in the manner
indisputably shown here involves far more than an injury to a single litigant. It is
a wrong against the institutions set up to protect and safeguard the public, institutions in
which fraud cannot complacently be tolerated consistently with the good order of society.
Surely it cannot be that preservation of the integrity of the judicial process must always
wait upon the diligence of litigants. The public welfare demands that the agencies of
public justice be not so impotent that they must always be mute and helpless victims of
deception and fraud.” Hazel-Atlas Glass Co. v. Hartford Empire Co. [322 U.S. 238, 246
(1944)].

4 Courts may not attempt to resolve controversies which are not properly presented to them for, if they
should do so, it would violate not only the precepts of Constitutional due process, but would fly in the face of
the American tradition of adversary litigation. In Re Custody of Ayala, 344 I11.3d 574, 800 N.E.2d 524, 53435 (1st Dis. 2003); Ligon v. Williams, 264 Ill.App.3d 701, 637 N.E.2d 633, 639 (1st Dis. 1994); In re Estate of
Rice, 77 Ill.App.3d 641, 656-57, 396 N.E.2d 298, 310 (1979)

3

Based on void judgment, another member of multi-judge corruption ring, Judge Linfield
fabricated nonexistent contract action to commit fraud upon the court; he made orders and
amended judgment to extort attorney’s fees for defendant in the amount of $72,519.03
from appellant’s wage property on which appellant depended. Justice Hoffstadt, who is in
the higher up in multi-judge corruption ring, used the same means as his first opinion to
fabricate a nonexistent contract action before the labor commissioner; thus as Justice,
departed the essentially passive role that is characteristic of the adversary system; he
violated constitutional due process; meanwhile he violated constitutional due process by
deliberately making an opinion on non subject of action; he made a second void opinion;
and he affirmed in full and supported the void amended judgment; he violated 14th
Amendment to the U.S. Constitution.
In order to shelter the members of the multi-judge corruption ring and prevent the
multi-judge corruption ring from being exposed, Judge Hofstadter violated the principle of
automatic disqualification of judges because his action was not tolerated by the
constitution in his first opinion, namely, he was highly partial to defendant and sheltered
the corrupt Judge Morton.
Members of the upper and lower levels of the multi-judge corruption ring jointly
conspired to deprive the appellant of wage property, namely, unpaid wages and extortion
attorney fees totaling more than $100,000; they approved defendant to place Lien5 on the

5 Temporary or partial impairments to property rights entailed by attachments, liens, and similar
encumbrances are sufficient to merit due-process protection even though they do not amount to any complete,

4

plaintiffs real property; they overtly violated 14th Amendment to the U.S. Constitution;
they are highly partial to defendant; they harmed the appellant to serve the interest of
defendant; they benefited financially from this case.
“Not only is a biased decisionmaker constitutionally unacceptable, but "our system of
law has always endeavored to prevent even the probability of unfairness." In re Murchison,
supra at 349 U. S. 136; cf. Turney v. Ohio, 273 U. S. 510, 273 U. S. 532 (1927). In pursuit
of this end, various situations have been identified in which experience teaches that the
probability of actual bias on the part of the judge or decisionmaker is too high to be
constitutionally tolerable. Among these cases are those in which the adjudicator has a
pecuniary interest in the outcome, [Footnote 14] and in which he has been the target of
personal abuse or criticism from the party before him. [Footnote 15] “(Withrow v. Larkin,
421 U.S. 35 (1975))
As mentioned in Pahis’s Yale law journal: Corruption in Our Courts: What It Looks
Like and Where It Is Hidden (2009) 118 1900, 1907,1924), Decisions, absent corruption,
would not be prima facie wrong or in violation of another law. These cases do seem to
intimate that corruption has a potentially infective quality and flourishes when those
higher up in the hierarchical structure engage in it.

physical, or permanent deprivation of real property. Connecticut v. Doehr, 501 U.S. 1, 111 S. Ct. 2105, 115 L.
Ed. 2d 1 (1991)

5

Pursuant to California Constitution, The State of California is an inseparable part of
the United States of America, and the United States Constitution is the supreme law of
the land. 6
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The 14th amendment to the U.S. Constitution, which provides, in part: No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the equal protection of
the laws.
California Constitution Article 1, section 16 which provides, in part:
SEC. 16. Trial by jury is an inviolate right and shall be secured to all.
“A real estate salesman cannot contract in his own name (ibid.); he can only be
employed by a licensed real estate [109 Cal. App. 3d 573] broker (Bus. & Prof. Code, §
10132; fn. 3 he cannot "be employed by...any person other than the broker under whom
he is at the time licensed" (§ 10137); and his license must remain in the possession of his
broker employer (§ 10160), who risks the suspension or revocation of his own license if
he fails "to exercise reasonable supervision over the activities of his salesmen" (§ 10177,
subd. (h)).
STATEMENT OF THE CASE
I.

Introduction

6 Cal. Const, art. Ill, SEC. 1.

6

Bo Peng is an ordinary American citizen. As a certified real estate salesman, Bo Peng
was employed by F.M. Tarbell in June 2015. Bo Peng’s job is to sign a home sales contract
on behalf of F.M. Tarbell Co. Law7 declared that a licensed salesman is employee, because
Bo Peng cannot sign contract in his own name and can only represent one real estate
broker - F.M. Tarbell Co, to sign a contract to complete the sale. After employment, F.M.
Tarbell Co. provided Bo Peng workplaces and facilities, required Bo Peng to use Tarbell's
mandatory email address; and his every document signed with the customer has to be
approved by the Manager. As an employee, Bo Peng is managed by his Manager. In order
to realize the American dream, Bo Peng worked hard; for two consecutive years, he
achieved silver awards; he obtained several other medals, certificates, and awards
(Evidence 18); he earned the highest sales share of 90%. In November 2017, at the
pinnacle of Bo Peng’s career, when Bo Peng’s big deal went into the escrow which contract
was signed by all parties and was the time to get paid, for the purpose stealing employees'
wages, F.M. Tarbell Co. suddenly announced that Bo Peng was terminated without cause
from F.M. Tarbell Co. See evidence 7 (1AA 179): “You have been terminated from Tarbell
Realtors”) "[sjtrong evidence in support of an employment relationship is the right to
discharge at will, without cause. [Citations.]" (S. G. Borello & Sons, Inc. v. Department of
Industrial Relations (1989.) 48 Cal.3d 341.)
Not only F. M. Tarbell Co. stole this large amount of wage, but also stole another wage
of Bo Peng, with total amount over $20,000. Apparently F.M. Tarbell Co. committed wage
theft by wrongful termination for the purpose of stealing employee wages.

7 Resnik v. Anderson & Miles (1980) [109 Cal. App. 3d 570, 573]

7

In its reference guide to rules and regulations, F.M. Tarbell Co wrote the policy that
the terminated salesman will get paid (See page 13 of Evidence 1); in the subsequent court
documents, F.M. Tarbell Co. admitted that two unpaid wages were owed to Bo Peng; (1AA
314). In the defendant’s evidence 500, F.M. Tarbell Co admitted that Bo Peng is employee
of F.M. Tarbell Co. F.M. Tarbell Co. owed wages to Bo Peng in the amount of $28,268.01.
By its unlawful business pattern, F.M. Tarbell Co. deliberately failed to pay Bo Peng the
hard earned wage to which he is entitled till today’s date. F.M. Tarbell Co. committed
classic wage theft 0
Wages are the property that employees depend on for survival. In order to protect his
legitimate rights and interests, Bo Peng reported F.M. Tarbell to the Labor commissioner.
The labor commissioner defined the non-payment of wages as wage theft. Therefore, the
case was filed and the hearing was conducted. In the face of factual evidences, the
defendant only agreed Pay 50% of the wages owed and no agreement was reached.
F.M. Tarbell Co. hired a dishonest and unethical attorney who violated the code of
professional conduct, deliberately lied to Labor Commissioner, and wrote a letter full of
lies to Labor commissioner. (1AA 181)
(l)Benjamin Griffin knowingly lied to Labor Commissioner: “Mr. Peng is not a signatory to
any Tarbell listing agreement”. In fact, Bo Peng’s signatures were on the original listing
documents for the listing Bo Peng claimed wage for.
(2) Benjamin Griffin knowingly lied to Labor Commissioner to use “leave” instead of the
“termination” because the right of termination from F.M. Tarbell Co. is a strong evidence

8

of employer and employee relationship and Bo Peng is an employee. (See evidence 7: “You
have been terminated from Tarbell Realtors”).
(3) Benjamin Griffin knowingly lied to Labor Commissioner that no commission would be
paid to agent after “leave” but in reality, F.M. Tarbell Reference Guide to Rules and
Regulation stated that the terminated agent would get paid. (See evidence 1 page 3-13
third paragraph from top when F.M. Tarbell Co initialed the termination, the terminated
agent would get paid).
(4) The defendant’s lawyer provided an invalid independent contractor agreement. When
entering F.M. Tarbell Co., Bo Peng is required to sign an independent contractor
agreement as a condition for joining the company. Employees had no choice but to sign a
agreement. Therefore, this independent contractor agreement was actually invalid. Law
has declared that a licensed real estate salesman is employee, they cannot be classified as
independent contractor and the independent contractor agreement is invalid.

8

“Since attorneys are officers of the court, their conduct, if dishonest, would constitute
fraud on the court” (H.K. Porter Co. v. Goodyear Tire & Rubber Co., 536 F.2d 1115, 1119
(6th Cir. 1976)) " “Fraud destroys the validity of everything into which it enters,” (Nudd v.
Burrows. Supra). Therefore, the labor commissioner’s determination is invalid. Labor
commissioner gave the plaintiff a right to sue in accordance with labor code §98.2 as the
legal principle to resolve disputes in the trial court.
On 2/13/19, Lawsuit was filed by Bo Peng to Los Angeles County Superior court with
labor code §98.2 as legal principle and with 5 claims (deliberately not paying wages (wage

8 See Resnik v. Anderson & Miles (1980) [109 Cal. App. 3d 570, 573]

9

theft), wrongful termination, willful misclassification, compensatory damage for economic
loss and emotional distress and punitive damage)(lAA 009-020.)
The trial court, as the original court, denied the defendant's motion to dismiss appeal
and ordered this case to enter into the jury trial. So jury trial with Labor Code §98.2 and 5
claims govern the whole proceeding of this case, with which the trial must be comply.
II.

The legal basis of the appellant

A. Legal principle and 5 claims of this case
This case is a jury trial with legal principle of de novo hearing required by Labor Code
§98.2 and with subjects of action of five claims:
Five claims against defendant are:
1. Intentionally not paying wages, is defined by the Labor commissioner as wage theft
and as a crime
2. For the purpose of stealing employees’ wages, discharge without cause in violation
of public policy is wrongful termination, and caused the plaintiff harm.
3. Willful misclassification taking advantage of state and federal taxes and employee’s
benefits.
4. Compensatory damages of economic and emotional distress to plaintiff caused by
defendant’s wage theft and wrongful termination.
5. Punitive damages for Defendant’s a large amount of illegal proceeds obtained
through unlawful practice pattern of wage theft, wrongful termination and
misclassification.
The above abbreviated as 5 claims.
10

This case is the de novo trial by legal principle of labor code §98.2 and five claims,
which govern the whole process of the case, and the trial must abide by that control.
This case is also a jury trial. “The process due at any given time must reflect the nature
of the proceeding and the interests involved.” KC v. State, 2015 WY 73, 351 P.3d 236
(Wyo. 2015).
B. California Supreme Court’s interpretation regarding Labor Code §98.2.
Pursuant to California Supreme Court’s interpretation regarding de novo hearing
required by Labor Code §98.2.
1. The same as if no labor commissioner’s hearing had ever been held.
2. Completely nullifies the labor commissioner’s determination of the matter.
A hearing de novo literally means a new hearing, or a hearing the second time. (18 Cor.
Jur. 486.) Such a hearing contemplates an entire trial of the controversial matter in the
same manner in which the same was originally heard. It is in no sense a review of the
hearing previously held, but is a complete trial of the controversy, the same as if no
previous hearing had ever been held. It differs, therefore, from an ordinary appeal from an
inferior to an appellate body where the proceedings of the hearing in the inferior court are
reviewed and their validity determined by the reviewing court. A hearing de novo
therefore is nothing more nor less than a trial of the controverted matter by the court in
which it is held. The decision therein is binding upon the parties thereto and takes the
place of and completely nullifies the former determination of the matter. (Collier & Wallis,
supra, 9 Cal.2d at 202, 205)

11

C. Law findings
Legislature and case law all found that a licensed real estate salesman is employee.
As a licensed real estate salesman, Bo Peng cannot contract in his own name; He can only
be employed by a licensed real estate broker; he can only contract on behalf of F.M. Tarbell
Co; he did not work independently; he has to get approval from his manager for his sales;
he can only employed by F.M. Tarbell Co.; he cannot work for other broker; and he is the
employee of F.M. Tarbell Co.
“A real estate salesman cannot contract in his own name (ibid.); he can only be
employed by a licensed real estate [109 Cal. App. 3d 573] broker (Bus. & Prof. Code, §
10132; fn. 3 he cannot "be employed by...any person other than the broker under whom he
is at the time licensed" (§ 10137); and his license must remain in the possession of his
broker employer (§ 10160), who risks the suspension or revocation of his own license if he
fails "to exercise reasonable supervision over the activities of his salesmen" (§ 10177, subd.

m
We conclude, therefore, that a salesman, insofar as his relationship with his broker is
concerned, cannot be classified as an independent contractor. Any contract which purports
to change that relationship is invalid as being contrary to the law (Gipson v. Davis Realty
Co., supra, 215 Cal. App. 2d 190, 207).” (Resnik v. Anderson & Miles (1980) [109 Cal. App.
3d 570, 573])
D. Fact finding: Bo Peng is an employee of F.M. Tarbell Co.
Based on the defendant’s admitted Evidence 500, defendant and Judge Moreton who
joined defendant:
12

1. fully admitted relationship of employer and the employee between defendant F.M.
Tarbell Co. and plaintiff Bo Peng.
2. fully admitted Bo Peng was an employee of defendant F.M. Tarbell Co.
3. fully admitted the facts that defendant F.M. Tarbell Co. owed wages $28,268.01 to
Bo Peng
Evidence showed that appellant Bo Peng was terminated without cause by F.M. Tarbell.
See evidence 7 (AA1, 179): “You have been terminated from Tarbell Realtors”). "[s]trong
evidence in support of an employment relationship is the right to discharge at will,
without cause. [Citations.]" (S. G. Borello & Sons, Inc. v. Department of Industrial
Relations (1989.) 48 Cal.3d 341.).

III.

The legal basis of the defendant and the judges who joined the
defendant

A. Independent contractor
Law expressly declared that a licensed real estate salesman cannot be classified as an
independent contractor because independent contractor can contract independently and
can work for several companies at the same time.
The website of EDD clearly stated that Unemployment Insurance Code 650 does not
establish as a matter of statute whether the salesman is an employee or an independent
contractor. (Total and Partial Unemployment TPU 415.3 B. Real Estate Salesperson
second paragraph). Apparently, UIC 650 is for purposes of unemployment compensation
and cannot be the legal test to determine the status of real estate salesman.
13

“We conclude, therefore, that a salesman, insofar as his relationship with his broker is
concerned, cannot be classified as an independent contractor.” (Resnik v. Anderson &
Miles supra)
B. Independent contractor agreement
Law declares that independent contractor agreement is invalid
“We conclude, therefore, that a salesman, insofar as his relationship with his broker is
concerned, cannot be classified as an independent contractor. Any contract which purports
to change that relationship is invalid as being contrary to the law” (Resnik v. Anderson &
Miles, id)
It is well established, under all of the varied standards that have been utilized for
distinguishing employees and independent contractors, that a business cannot unilaterally
determine a worker’s status simply by assigning the worker the label “independent
contractor” or by requiring the worker, as a condition of hiring, to enter into a contract
that designates the worker an independent contractor. (See, e.g., Borello, supra, 48 Cal.3d
at pp. 349, 358-359; Rutherford Food, supra, 331 U.S. at p. 729..)
Defendant’s unilaterally requiring the employee, as a condition of employment, to
enter into a agreement that designates the employee an independent contractor and
employee has no choice and no negotiation opportunity, resulted in independent contractor
agreement being invalid.
C. Determination of Labor commissioner
Pursuant to Supreme Court’s interpretation regarding de novo hearing required by
Labor Code §98.2, the determination of Labor commissioner is invalid.

14

1. The same as if no labor commissioner’s hearing had ever been held.
2. Completely nullifies the labor commissioner’s determination of the matter.
(See Collier & Wallis, supra, 9 Cal.2d at 202, 205)
Defendant attorney wrote a letter full of lies (1AA 181), conducted perjury and
committed fraud upon the court. Fraud upon the court made everything invalid. “Since
attorneys are officers of the court, their conduct, if dishonest, would constitute fraud on
the court” (H.K. Porter Co. v. Goodyear Tire & Rubber Co., 536 F.2d 1115, 1119 (6th Cir.
1976)) "“Fraud destroys the validity of everything into which it enters,” (Nudd v. Burrows.
Supra)
In summary, independent contractor agreement, independent contractor and
determination of labor commissioner are all invalid. Therefore orders, judgment, amended
judgment and opinions, which were made by judges who joined the defendant and which
are based on invalid independent contractor, invalid independent contractor agreement
and invalid determination of labor commissioner, are also void.
The U.S. Supreme Court held: “Courts are constituted by authority and they cannot
beyond the power delegated to them. If they act beyond that authority, and certainly in
contravention of it, their judgments and orders are regarded as nullities. 9 They are not
voidable, but simply void, and form no bar to a remedy sought in opposition to them, even

9 VALLELY v. NORTHERN FIRE & MARINE INS. CO. 254 U.S. 34

15

prior to a reversal. They ‘constitute no justification, and all persons concerned in executing
such judgments or sentences are considered in law as trespassers.10
IV.

The formation of multi-judge corruption ring who served the interest of
the defendant.

A. Defendant faced losing this case and huge fine from government.
Due to conclusive evidences, the defendant is impossible to win the case, repeatedly
expressed willingness to pay the unpaid wages, (in labor commissioner, defendant was
willing to pay 50% of unpaid wages, the last meeting with the defendant president,
defendant was willing to pay $23,000, but refused to pay the damage)
After court denied the defendant’s motion to dismiss appeal, trial court established
that the legal principle of de novo hearing required by labor code 98.2 and 5 claims to
enter trial by Jury on merits.
After the case was formally established as a jury trial, calculated on the basis of the
jury's instruction, Compensatory damages will be over million dollars which shall be tried
by Jury, not coordination Judge More ton.
Jury trial posed a great pressure to defendant since defendant could not use illegal
gains to control and influence many jurors who are randomly selected. Defendant felt that
he was unable to win this case.
When defendant loses this case in the jury trial, defendant is facing over million dollar
economic and emotional distress to plaintiff, plus the large amount of punitive damage

10 Elliott v. Lessee of Piersol, 26 U.S. 1 Pet. 328 328 (1828)

16

payment, and subsequent over tens of millions of dollars in government fine due to
defendant’s willful misclassification.
B. Defendant used large amount of illegal gains to corrupt multiple judges
and made two unlawful orders
In order to deal with huge fine from government and change the status impossible to
win to the status possible to win, defendant used the large amount of gain obtained from
its unlawful business pattern through wage theft, wrongful termination, misclassification,
to corrupt the judiciary system.
Because the trial court’s orders or judgment need to be affirmed by the Court of Appeal,
the defendant has to corrupt both the judges in trail court and Justice of court of appeal
and to make multi-judges to collaborate to accomplish the defendant's unlawful orders and
will of being prevailing party, which increased cost of bribery, but compared to the value of
the case over tens of millions dollar, the cost of corruption is still a small fraction.
“Judicial corruption can be understood as the selling and purchasing of legal decisions.”
(STRATOS PAHIS, Corruption in Our Courts: What It Looks Like and Where It Is Hidden
(2009) 118 THE YALE LAW JOURNAL 1900, 1903)
Defendant engaged in ex parte communication with Judge through defendant’s
attorney, gave its unlawful orders to Judge Moreton after this case has been established
as jury trial.

17

1. Ordering the judge that the court must preclude “emotional distress, lost wages,
punitive damages”. (AA 322,) which is worth over 1 million dollars calculated based
on jury instruction.
2. “This case must be taken from the jury and a decision rendered on the written and
admitted evidence at trial.” (AA 318) which destroyed the impartiality of our
judiciary system, namely, Trial by jury is an inviolate right and shall be secured to
all (Constitution Article 1, section 16)
C. Multiple judges assessed the risk;
Defendant’s orders are unconstitutional. Multi-judges who pursue private gain
assessed the risk involved the corruption; they knew the value of this case; they perceived
low risk because plaintiff is self represented; and they considered that it was a rare
opportunity for benefiting financially with a low-risk, high-rewards.
D. Multiple Judges joined the defendant to form multi-judge corruption ring
to serve the interests of defendant.
Members of Multi-judge corruption ring disregarded of the judiciary dignity, accepted
defendant’s orders, took advantage of their judicial positions to join the defendant, ware
highly partial to defendant, were unable to remain impartial and served the interests of
the defendant, to benefit financially from this case.
The bribery of judges has a direct impact on the very essence of the judicial function,
which is to deliver an independent, fair and impartial decision. The consequence is
unfairness and unpredictability in the legal process from start to finish, and a systematic
undermining of the rule of law. Corruption in the judiciary is all the more damaging
18

because of the important role the judiciary is expected to play in combating this very evil.
As a consequence judicial corruption hampers national developments and the institution
at the heart of the fight against corruption is disabled.(TI, Global Corruption Report 2007
supra P62)
E. The act of the member of multi-judge corruption ring
After joining the defendant by engaging improper ex parte communication with
defendant, in order to show his loyalty, to gain the trust of the defendant, and to benefit
more private gain, without entering the jury trial, when the two parties did not play yet,
corrupt Judge Moreton couldn’t wait to give the defendant the right to draft a self-serving
order of “precludes any claims by Plaintiff of punitive damages, emotional distress, lost
wages or ancillary claims against Tarbell” which penalty is over million dollars calculated
by jury instruction. Absent of a motion, corrupt Judge Moreton had no jurisdiction; he
acted in excess of his jurisdiction to exercise the right of jurors; he did not change a word
and approved defendant proposed self-serving order; he did not give appellant the
opportunity to object; he violated the legal principles of de novo haring required by Labor
code §98.2 and five claims and principle of jury trial; and he violated constitutional due
process and rendered a void order.
Thus, a judgment rendered by a court that lacked jurisdiction over the subject matter
of the action or the person of the defendant or that granted relief the court had no power
to grant is void [Rockefeller Technology Investments (Asia) VII v. Changzhou SinoType
Technology Co., Ltd. (2018) 24 Cal. App. 5th 115, 134, 233 Cal. Rptr. 3d 814]

19

Corrupt Judge More ton did accomplish the defendant's unlawful order; he precluded
million dollars of penalties for the defendant; and he gained the defendant's trust. The
very next day, the defendant made a 180-degree U turn, withdrawing previous
commitment for paying unpaid wages $23,000 and settlement, asked for attorney fees of
$40,000 from the victim of their unlawful business practice, which is the best proof that
Judge Moreton joined defendant, was highly partial to defendant and merged with
defendant. Defendant raised his will:
1. Changing from status impossible to win to status possible to win, finally being
prevailing party.
2. Extorting the attorney’s fees. (1AA 401)
Corrupt Judge Moreton then ordered to prevent appellant from writing compensation
damage and punitive damage into jury instruction. Corrupt Judge Moreton violated the
appellant’s constitutional rights; he forced appellant to harmony with his void order; and
otherwise he would impose a sanction of $500.
F. Appellant filed writ of mandate
Regarding corrupt Judge Moreton’s void order, appellant filed a timely writ of mandate
to court of appeal. However, Justice Hoffstadt denied appellant’s writ of mandate. With
his experience as Justice, Justice Hoffstadt should know that corrupt Judge Moreton
joined defendant, was highly partial to defendant and was unable to remain impartial.
Meanwhile, Justice Hoffstadt should indentify all corrupt Judge Moreton’s
unconstitutional errors, violation of law and violation of principle of Jury trial, especially
corrupt Judge Moreton’s violation of constitutional due process.
20

In order shelter Judge Moreton, a member of the multi-judge corruption ring, Justice
Hoffstadt upheld the corrupt Judge Moreton by denying the plaintiffs writ of mandate; he
rendered the void order violating constitutional due process made by Judge Moreton valid;
he collaborated with corrupt Judge Moreton to complete the defendant's unlawful order to
remove million of dollars in penalties for defendant; In return, he benefitted considerably;
meanwhile he exposed himself as the higher up in the multi-judge corruption ring; he was
highly partial to the defendant; he was unable to remain impartial; and he served the
interests of the defendant.
“Bribery can occur at every point of interaction in the judicial system: court officials
may extort money for work they should do anyway; lawyers may charge additional ‘fees’ to
expedite or delay or to direct clients to judges known to take bribes for favourable
decisions. For their part, judges may accept bribes to delay or accelerate cases, accept or
deny appeals, influence other judges or simply decide a case in a certain way.”[Emphasis
added] (Transparency International, the global coalition against corruption, Global
Corruption Report 2007, Published in the United States of America by Cambridge
University Press, New York, xxiv Comparative analysis of judicial corruption)
G. Corrupt Judge Moreton denied constitutionally entitled jury trial.
Because of Justice Hoffstadt’s shelter and support, corrupt Judge Moreton was more
disregarding for the law; he unjustified sanctioned appellant $500; he departed from the
essentially passive role that is characteristic of the adversary system; he committed fraud
upon the court by fabricating a re-request for a jury trial; without a motion, he violated
due process of law; he denied constitutionally entitled jury trial according to defendant’s
21

unlawful orders; and he unconstitutionally changed the jury trial by 12 jurors to his 1
judge court trial presiding by himself.
H. Corrupt Judge Moreton rendered void and absurd judgment
Supreme Court held that court trial was unfair after denial of jury trial11, however
corrupt Judge Moreton forced to conduct the unfair court trial anyway. In the unfair court
trial, echoing with defendant, corrupt Judge Moreton conspired with the defendant to try
this case as a mere formality; he violated legal principle of de novo hearing required by
Labor code §98.2 and 5 claim of this case; he approved defendant’s oral motion for
judgment; and he made defendant to draft the proposed statement of decision.
On 01/21/20, Appellant filed: Defendant Attorney: Benjamin Griffin Engaged in an
Illegal Act of Tampering with Evidence" (AA 501), and stated that due to the felony
tampering with evidence, the defendant already lost the case.(lAA 502), Pursuant to
Penal Code 132, defendant committed felony and had to go to prison.
On 1/23/20, without giving appellant the opportunity to object, without changing a
word, corrupt judge Moreton approved proposed statement of decision dated 1/21/20
drafted by defendant directly using court title and self claiming himself prevailing party;
which proved again that corrupt Judge Moreton joined defendant, shared the judiciary
power with defendant, was highly partial to defendant, was unable to remain impartial
and served the interests of defendant. In fact, the objection to proposed statement of
decision was filed by appellant on 1/24/20.

11 Martin v. County of Los Angeles, supra

22

Judge Moreton deliberately violated legal principle of de novo hearing required by
Labor code §98.2 and 5 claim of this case and principle of jury trial; he violated the law
that the real estate salesman that has been determined by the law is employee; he re­
identified real estate salesman as independent contractor; he made a decision on non
subject of action of this case, namely, independent contractor; thus he violated due process
of law and the judgment is void; on the basis of which, he rendered an absurd judgment
making defendant who committed felony, wage theft as a prevailing party, which is
against the public policy, against universal principle and shocked the judicial conscience.
V.

Without conducting trial by Labor Code §98.2 and 5 claims, corrupt Judge
Moreton seriously violated constitutional due process, thus the judgment is void.

A. In the moral sense, Defendant committing felony, wage theft can never becomes a
prevailing party because Wage theft is crime and caused public several times more
harm than burglary and bank robbery. Judgment is against public policy, against
the universal maxim of “pay the debt you owe”, and subverted the judicial conscious.
B. In the legal sense, judgment rendered for the purpose of corruption in violation of
due process was void.
Without conducting trial by Labor Code §98.2 and 5 claims, corrupt Judge Moreton
seriously violated constitutional due process, thus the judgment is void.
Legally, a judgment based on a denying a constitutionally entitled jury trial, based on
tampering with the plaintiffs evidences, made for the purpose of corruption, made in
violation of due process, and fraud upon the court is void.

23

Law has determined that a licensed real estate salesman is employee. Judgment finding
that a licensed real estate salesman is independent contractor is void as being contrary to
the law. (Resnik v. Anderson & Miles, supra)
C. In the factual evidence sense, based on defendant admitted Evidence 500,
defendant and Judge Moreton who joined defendant:
1) fully admitted relationship of employer and the employee between defendant
F.M. Tarbell Co. and plaintiff Bo Peng.
2) fully admitted Bo Peng was an employee of defendant F.M. Tarbell Co.
3) fully admitted the facts that defendant F.M. Tarbell Co. owed wages to Bo Peng
in the amount of $28,268.01.
Evidence 500 overturned judgment finding that a licensed real estate salesman is
independent contractor.
“The process due at any given time must reflect the nature of the proceeding and the
interests involved.” KC v. State, 2015 WY 73, 351 P.3d 236 (Wyo. 2015).
“Judgment is a void judgment if court that rendered judgment lacked jurisdiction of the
subject matter, or of the parties, or acted in a manner inconsistent with due process, Fed.
Rules Civ. Proc., Rule 60(b)(4),28 U.S.C.A., U.S.C.A. Const. Amend. 5 Kiugh v. U.S., 620
F.Supp. 892 (D.S.C. 1985)"
VI.

On appeal, Justice Hoffstadt well calculated to systematically
undermine 3 constitutional impartiality mechanism, namely,
impartiality mechanism of random selection of cases, impartiality
mechanism of automatic disqualification and impartiality mechanism
of jury trial.
24

Because Justice Hoffstadt exposed injustice and sheltering corrupt Judge Moreton in
denying the appellant’s writ of mandate, he should automatically disqualify himself on the
first appeal. The first appeal has been assigned to Division 1 through impartial
mechanism of random selection of cases. Presiding Judge from division one has signed the
case document. Because division 1 has the historical record12 to determine a licensed real
estate salesperson as an employee, but the corrupt Judge Moreton found a licensed real
estate salesperson as an independent contractor, which was contrary to division l’s
determination.
In order to prevent the exposure of multi-judge corruption ring, Justice Hoffstadt not
only did not disqualify himself, but unlawfully requested to divert the first appeal to
proceed by himself after this appeal has been proceeded for nearly half a year in Division
one.
Should a judge not disqualify himself, then the judge is violation of the Due Process
Clause of the U.S. Constitution. United States v. Sciuto, 521 F.2d 842, 845 (7th Cir. 1996)
("The right to a tribunal free from bias or prejudice is based, not on section 144, but on the
Due Process Clause.").
Justice Hoffstadt committed fraud upon the court and played the modern
version of HAZEL-ATLAS case of U.S. Supreme Court. And he undermined
impartiality mechanism of jury trial.

12 Resnik v. Anderson & Miles, supra

25

Justice Hoffstadt used disinterested clerk as disguise13, made the question (actually he
made the question) and invited supplementary briefing after “Case fully briefed”; he
implanted a nonexistent record of CCP 581c motion; then he fabricated a whole jury trial
with nonexistent CCP 581c motion to commit fraud upon the court; More seriously, he
used the means of fraud upon the court to deny the constitutionally entitled jury trial; he
destroyed impartiality of jury trial14; he committed the most egregious constitutional
magnitude error; his actions met with the elements of a fraud upon the court “(1) an
intentional fraud; (2) by an officer of the court; (3) which is directed at the court itself; and
(4) in fact deceives the court.”15; On which basis, he made his opinions; and he affirmed in
full the void orders and judgment rendered for the purpose of corruption by corrupt Judge
Moreton.
Justice Hoffstadt’s decision produced by fraud upon the court is not in essence a
decision at all, and never becomes final.
"Fraud upon the court" has been defined by the 7th Circuit Court of Appeals to
"embrace that species of fraud which does, or attempts to, defile the court itself, or is a
fraud perpetrated by officers of the court so that the judicial machinery can not perform in

13 “Truth needs no disguise” (HAZEL-ATLAS GLASS CO. v. HARTFORD-EMPIRE CO (1944) 322 U.S. 238,
250)
14 Impartiality is “an integral part of the constitutional concept of the right of a jury trial.” [Dorshkind v.
Harry N. Koff Agency, Inc. (1976) 64 CA3d 302, 308, 134 CR 344, 347]

15 Herring v. United States, 424 F.3d 384, 386 (3d Cir. 2005).

26

the usual manner its impartial task of adjudging cases that are presented for
adjudication." Kenner v. C.I.R., 387 F.3d 689 (1968); 7 Moore's Federal Practice, 2d ed., p.
512, f 60.23. The 7th Circuit further stated "a decision produced by fraud upon the court
is not in essence a decision at all, and never becomes final."
As can be seen from the case Justice Hoffstadt cited in his fabricated jury trial with
nonexistent CCP 581c motion, "serves to take a case from the jury's review" in page 7 of
the opinion, compared with the defendant's order of “this case must be taken from the jury
and a decision rendered on the written and admitted evidence at trial.” (AA 318.), it
reveals that Justice Hoffstadt deliberately and well calculated to comply with defendant’s
unlawful orders; he was controlled by defendant; he lost independence; his true purpose is
also to accomplish defendant's order to serve the interests of the defendant, meantime to
shelter corrupt Judge Moreton, the member of multi-judge corruption ring.
Justice Hoffstadt took advantage of his judicial power to conspire with corrupt Judge
Moreton to finally accomplish the defendant's 2 unlawful orders and 1 will, namely,
1. Ordering the judge that the court must preclude “emotional distress, lost wages,
punitive damages”. (AA 322,) which is worth over 1 million dollars calculated based
on jury instruction.
2. “This case must be taken from the jury and a decision rendered on the written and
admitted evidence at trial.” (AA 318) which destroyed the impartiality of our
judiciary system, namely, Trial by jury is an inviolate right and shall be secured to
all (Constitution Article 1, section 16)

27

3. Will: changing from status impossible to win to status possible to win, finally being
prevailing party.(AA 401).
Therefore, in order to accomplish unlawful objectives, namely, 2 orders and lwill,
Justice Hoffstadt destroyed 3 constitutional impartiality mechanisms.
Justice Hoffstadt has made members of the multi-judge corruption ring jointly benefit
financially from this case. “These cases do seem to intimate that corruption has a
potentially infective quality and flourishes when those higher up in the hierarchical
structure engage in it. (PAHIS, Corruption in Our Courts: What It Looks Like and Where
It Is Hidden (2009) 118 THE YALE LAW JOURNAL 1900, 1924)
VII.

Regarding orders and amended judgment rendered by Judge Linfield

A. Regarding attorney’s fees motion
Judge Linfield is the successor of corrupt Judge Moreton; he voluntarily and publicly
tied to corrupt Judge Moreton; Judge Linfield is highly partial to the defendant;
regardless of right or wrong, he fully accepted defendant’s attorney’s fees motion which
was full of mistakes and defects and with perjury service; he violated passive judge role to
grant relief to defendant, even by tampering with Law; and he covered up defendant’s
felony offering ante-dated proof of service.
Regarding defendant attorney’s committing felony by tampering with Bo Peng’s
evidences and lost this case, Judge Linfield answered that because Judge Moreton didn’t
find it, he was not finding that. (2AA 135)
Regarding that through improper ex parte communication with defendant, Judge
Moreton disregarded judiciary dignity, accepted defendant’s orders, joined the defendant,
28

took advantage of judicial position to serve defendant’s interest, Judge Linfield stated in
the open court: “If Appeal court finds Judge Moreton is wrong, then I am wrong. If Appeal
court finds Judge Moreton is right, I am right. (2AA 135). Later Judge Linfield has
publicly and repeatedly stressed that if Judge Moreton is wrong, he is wrong. If Judge
Moreton is right, he is right, (2AA 136 ) ; he voluntarily and publicly tied to Judge
Moreton, which shows Judge Linfield is influenced or controlled by Judge Moreton, not as
established by LAW; which demonstrated that Judge Linfield’s inability to remain
impartial; which also exposed that the court of appeal has a multi-judge corruption ring’s
umbrella, namely, sheltering from Justice Hoffstadt.
B. Orders and amended judgment rendered by Judge Linfield who committed
fraud upon the court are void
This case is jury trial with Labor Code §98.2 and 5 claims, which govern the whole
proceeding of this case, with which the proceeding must comply. Labor Code and contract
law are different nature of action16. This case is absolutely impossible to be contract
action. Judge Linfield committed fraud upon the court.
1.

Judge Linfield used a phrase “in any action on a contract” in CCP1717 to make a

false statement to fabricate a non- existent contract action; on the basis of which, he made
Minute Order dated 7/23/2020 granting defendant's motion for attorney's fees in the
amount of $72,519.03 which defendant is not entitled to; he denied Plaintiffs motion to tax

16 The process due at any given time must reflect the nature of the proceeding and the interests involved.
KC v. State, 2015 WY 73, 351 P.3d 236 (Wyo. 2015).

29

costs; and he made an amended judgment dated 8/18/2020 granting defendant attorney’s
fees in the amount of $72,519.03 which defendant is not entitled to. Defendant obtained
$72,519.03 through fraud upon the court. Fraud destroys everything, therefore defendant
is not entitled to attorney’s fees and costs. “Fraud destroys the validity of everything into
which it enters,” (Nudd v. Burrows (1875), 91 US 426, 23 Led 286,290)
2. Pursuant to CRC Rule 3.1700 (a), for the mandatory 15-day deadline, the starting date
is 2/3/20 and the ending date is 2/18/20. On appeal, using facts and the law, Appellant
refuted the defendant's argument and Defendant has to admit in Respondent’s Brief that
“The original judgment was entered on February 3, 2020.”(RB 12)
Judge Linfield knowingly deleted the substantial terms of the California Rules of
Court Rule, Rule 3.1700 (a) (1) “...or the date of service of written notice of entry of
judgment or dismissal,,,” ; he make the copy of the file-stamped judgment lose legal basis;
he committed fraud upon the court; he made false statement using ending date 2/18/20 as
starting date (2AA 205); he tolerated defendant’s felony offering ante dated proof of service;
he violated CCP 473 and passive role of Judge to give defendant relief; he approved the
“inadvertence” without defendant’s application for CCP 473 relief; he violated Rule 3.1700
to make Minute Order dated 8/17/2020 denying Plaintiffs motion to tax costs including
attorney’s fees; which showed that he was highly partial to defendant; he was unable to
remain impartial; he served the interest of defendant; and he was member of the multi­
judge corruption ring.
C. Corrupt Judge Linfield’s orders and amended judgment are void.

30

Corrupt Judge Linfield violated constitutional due process by making decisions on non
subjects of action17’ that is, independent contractor agreement, thus his orders and
amended judgment are void. Plus independent contractor agreement itself is invalid as
being contrary to the law (Resnik v. Anderson & Miles supra)
D. Corrupt Judge Linfield committed fraud upon the court, which makes everything
invalid
Orders and amended judgment based on void judgment rendered for the purpose of
corruption by Judge Moreton is also void. Thus, Defendant is not entitled to any costs
including attorney fees.
On the first appeal, since Justice Hoffstadt deliberately rendered void judgment valid;
he fabricated a whole jury trial with nonexistent CCP 581c motion; he made an opinion
based on his fraud upon the court; his first opinion produced by fraud upon the court is not
in essence a decision at all, and never becomes final; he acted being highly partial to
defendant and corrupt Judge Moreton and he could not remain impartial: all of which
were submitted to the California Supreme Court by appellant, he should disqualify

17 Courts may not attempt to resolve controversies which are not properly presented to them for, if they
should do so, it would violate not only the precepts of Constitutional due process, but would fly in the face of
the American tradition of adversary litigation. In Re Custody of Ayala, 344 I11.3d 574, 800 N.E.2d 524, 53435 (1st Dis. 2003); Ligon v. Williams, 264 Ill.App.3d 701, 637 N.E.2d 633, 639 (1st Dis. 1994); In re Estate of
Rice, 77 Ill.App.3d 641, 656-57, 396 N.E.2d 298, 310 (1979)

31

himself 18due to injustice and partiality; However, he not only did not disqualify himself,
but also continued to make the second appeal proceed by himself; he used the same
manner as the first opinion to fabricate a nonexistent contract action before labor
commissioner office; his fraud upon the court is easy to be disapproved because labor
commissioner has no jurisdiction with the contract action and California supreme court
has declared the labor commissioner’s determination is nullified in interpretation of labor
code §98.2; he deliberately made opinion on his fabricated nonexistent contract action;
then he made second opinion on non subject of action of this case, namely, invalid
independent contractor agreement to affirm the amended judgment granting the
attorney’s fees in the amount of $72,519.03; he continued to shelter members of multi­
judge corruption ring to support corruption orders and amended rendered by another

i
member of multi-judge corruption ring, namely Judge Linfield; Justice Hoffstadt violated
14th Amendment to the U.S. Constitution: he violated U.S. Constitution: 19he has lost his
official status and can only represented him personally, so he violated the impartial
decision maker of due process of law;20 and his second opinion void.21
Justice Hoffstadt’s second opinion which based on invalid independent contractor
agreement is void; his opinion which based on violation due process is void; his opinion
which based on his fraud upon the court makes everything invalid, namely, order granting

18 Should a judge not disqualify himself, then the judge is violation of the Due Process Clause of the U.S.
Constitution. United States v.. Sciuto, 521 F.2d 842, 845 (7th Cir. 1996) ("The right to a tribunal free from
bias or prejudice is based, not on section 144, but on the Due Process Clause.").
19 Scheuer v. Rhodes supra
20 id

21 Kiugh v. U.S. supra

32

5

Without proceeding trial by Labor code §98.2 and 5 claims, Justice Hoffstadt
violated constitution due process; he conspired with corrupt Judge Moreton, corrupt Judge
Linfield to finally accomplish defendant’s 2 unlawful orders and 2 wills; they harmed the
appellant; however, without conducting trial by Labor code §98.2 and 5 claims, they
violated constitutional due process; thus their decisions are void; they committed fraud
upon the court, which made everything invalid, namely, their orders, judgment, amended
judgment, and opinions are all void. “Equal treatment before the law is a pillar of
democratic societies. When courts are corrupted by greed or political expediency, the
scales of justice are tipped, and ordinary people suffer,” said Huguette Labelle, Chair of
Transparency International. “Judicial corruption means the voice of the innocent goes
unheard, while the guilty act with impunity.”
Objection to Justice Hoffstadt’s opinions
Justice Hoffstadt fabricated a jury trial with nonexistent CCP 581c motion; he
deliberately made an opinion on non subject of action of this case; he deliberately
committed fraud upon the court; thus his first opinion is void. On the second opinion, he
used the same method; he fabricated a contract action before labor commissioner; he
willfully defrauded the court. Justice Hoffstadt’s opinions based on the invalid
independent contractor agreement, the wrongly identified independent contractor, and the
labor commissioner determination nullified by law, are void. The affirmance of a void
judgment upon appeal imparts no validity to the judgment, but is itself void by reason of
the nullity of the judgment appealed from. ( Pioneer Land Co. v. Maddux, 109 Cal. 633
[50 Am. St. Rep. 67, 42 P. 295].)
34

Law has found that:
1.

A licensed real estate salesman is employee of his broker employer, namely, A licensed
real estate salesman, Bo Peng , is employee of his broker employer, F.M. Tarbell Co.

“A real estate salesman cannot contract in his own name (ibid.); he can only be employed
by a licensed real estate [109 Cal. App. 3d 573] broker (Bus. & Prof. Code, § 10132; fn. 3 he
cannot "be employed by...any person other than the broker under whom he is at the time
licensed" (§ 10137); and his license must remain in the possession of his broker
employer (§ 10160), who risks the suspension or revocation of his own license if he fails
"to exercise reasonable supervision over the activities of his salesmen" (§ 10177, subd. (h)).
2. A licensed real estate salesman cannot be classified as an independent contractor.
We conclude, therefore, that a salesman, insofar as his relationship with his broker is
concerned, cannot be classified as an independent contractor. Any contract which
purports to change that relationship is invalid as being contrary to the law (Gipson v.
Davis Realty Co., supra, 215 Cal. App. 2d 190, 207).” (Resnik v. Anderson & Miles (1980)
[109 Cal. App. 3d 570, 573])
3. Independent contractor agreement is invalid as being contrary to the law.
We conclude, therefore, that a salesman, insofar as his relationship with his broker is
concerned, cannot be classified as an independent contractor. Any contract which
purports to change that relationship is invalid as being contrary to the law
(Gipson v. Davis Realty Co., supra, 215 Cal. App. 2d 190, 207).” (Resnik v. Anderson &
Miles (1980) [109 Cal. App. 3d 570, 573])
4. Determination of labor commissioner was nullified by Law;
35

A hearing de novo literally means a new hearing, or a hearing the second time. (18 Cor.
Jur. 486.) Such a hearing contemplates an entire trial of the controversial matter in the
same manner in which the same was originally heard. It is in no sense a review of the
hearing previously held, but is a complete trial of the controversy, the same as if no
previous hearing had ever been held. It differs, therefore, from an ordinary appeal
from an inferior to an appellate body where the proceedings of the hearing in the inferior
court are reviewed and their validity determined by the reviewing court. A hearing de
novo therefore is nothing more nor less than a trial of the controverted matter by the court
in which it is held. The decision therein is binding upon the parties thereto and takes the
place of and completely nullifies the former determination of the matter. (Collier &
Wallis, supra, 9 Cal.2d at 202, 205)
In addition, Defendant’s attorney’s fraud upon the court made determination of labor
commissioner invalid. As court officer, defendant attorney wrote a letter full of lies to
Labor commissioner; he willfully made perjury before labor commissioner; he committed
fraud upon the court; “Since attorneys are officers of the court, their conduct, if dishonest,
would constitute fraud on the court” (H.K. Porter Co. v. Goodyear Tire & Rubber Co., 536
F.2d 1115, 1119 (6th Cir. 1976)) "“Fraud destroys the validity of everything into which it
enters,” (Nudd v. Burrows. Supra)
Opinions is full of the 3 invalid basis, namely, independent contractor agreement,
wrongly identified independent contractor and invalid labor commissioner’s determination
thus, opinions made by Justice Hoffstadt’s, a constitutionally unacceptable and biased
decisionmaker, are void. Justice Hoffstadt fabricated the records to commit fraud upon the
36

court to cover the fact that there was no trial by Labor Code §98.2 and 5 claims. The
essence of his opinions are to obtain financial benefits by making erroneous finding to
override the law, providing corrupt decision in accordance with the defendant's unlawful
orders and will, serving the interest of defendant, legalizing wage theft, and ultimately to
exempt the defendant from tens of millions of dollars or more in government fines.
Justice Hoffstadt conducted a Judicial oppression by extorting over $100,000 from
appellant: without conducting trial by labor §98.2 and 5 claims, he violated the due
process; he violated 14th Amendment to the U.S. Constitution by depriving appellant of
wage property $$28,268.01 that appellant depended on, by extorting attorney’s fees
$72,519.03 for defendant from appellant. On top of that, Justice Hoffstadt harmed
appellant by causing appellant to spend large amount of time, finance, health, energy to
fight with his judicial oppression.
Judgment without such citation and opportunity lacks all the attributes of a judicial
determination; it is judicial usurpation and oppression and can never be upheld where
justice is fairly administered. Powell v. State of Ala., 287 U.S. 45, 53 S. Ct. 55, 77 L. Ed.
158, 84A.L.R. 527 (1932)
REASONS FOR GRANTING THE PETITION
It can be seen from the case of Resnik v. Anderson & Miles supra that many California
courts of appeals, including the division 1 of the same court of appeal, have determined
that a licensed real estate salesman is employee and cannot be classified as independent
contractor and the independent contractor agreement is invalid. And the division 5 of the
same court of appeal has expressed clearly in Relevant Case: Bararsani v.
37

Coldwell Banker Residential Brokerage Co., B251588 that Bus. & Prof. Code, § 10032 is
not controlling. Only Justice Hoffstadt, who is higher up in multi-judge corruption ring,
determined that the corrupt Judge Moreton used non mandatory BPC 10032 and the
unrelated Unemployment Insurance Code 650 as the legal test to misclassify the employee
to independent contractor which is contrary to the law. Apparently, Justice Hoffstadt did
not follow the principle of stare decisis which represented the integrity. Justice Hoffstadt’s
opinion is inconsistent with the decision of other court of appeal, which led to judiciary
confusion and uncertainty of law, the consequence of which is unfairness and
unpredictability in the legal process from start to finish for this case.
Regarding the value of this case: As the defendant faces losing this case, depending on
the time, numbers of employees of the F.M. Tarbell Co, the government's fine will exceed
tens of millions dollars or even hundreds of millions dollars, so the value of this case is
even hundreds of millions, which is a big case affecting the national economy and
influencing the interests of every American citizen. This case has national importance.
Federal and state lost tens of millions in tax revenue on one company. Based on the
numbers of companies in the U.S. Supreme Court it was counted more than billions of
dollars in tax revenue loss, which directly affected the development of the national
economy. In order to reverse the loss of this big case, the defendant frantically used illegal
gains to influence and corrupt officials in the judicial system.
A new trend: illegal businessused a large amount of illegal proceeds to influence and
corrupt the judges in judicial system, to form a multi-judge corruption ring, thereby
buying judicial decisions that are favorable to illegal business, legalizing wage theft,
38

undermining the fairness and impartiality of the judicial system, and resulting in
reduction of the federal and state taxation and reduction on investment in the nation's
construction, which has adversely affected the development of the national economy.
Politically, judicial corruption has hurt the image of America as a beacon of nation of rule
of law in the world that we are proud of.
This case involves all aspects of the law and has a legal textbook effect.
Because California has the greatest impact, has a large area and a large population,
and has the greatest influence in the national judicial system.
No state legislator or executive or judicial officer can war against the Constitution
without violating his solemn oath to support it.22 Corrupt judges in multi-judge corruption
ring war against U.S. Constitution and California State Constitution; they broke stare
decisis legal principle; they broke the rule that decision was based on evidence; they
tampered with Statutes; they tampered with case Law; they denied constitutionally
entitled jury trial; they broke the rule of random selection of cases; they break the rule of
automatic disqualification: they violated the ethic of Judge; they violated their solemn
oath; they tolerated defendant’s felony tampering with plaintiffs evidences and offering
ante-dated proof of service; they violated passive role of a judge to grant relief that
defendant is not entitled; they violated due process by deliberately making decisions on
the non subject of action; they fabricated jury trial by nonexistent CCP 581c motion to
commit fraud upon the court; they fabricated nonexistent contract action to extort

22 Cooper v. Aaron, 358 U.S. 1 (1958)

39

attorney's fees; they tampered with fact; they committed felony by tampering with
evidences; and their list of violation of law goes on...
U.S. Supreme Court has responsible and duty to uphold and defend constitution and
rule of law to intervene, to enforce the constitutional entitled rights to every American
people.
After the intervene of the U.S. Supreme Court, U.S. Supreme Court’s decision on this
case can be guidance to national judiciary system, increasing the tax dollars for federal
and state, promoting national economic development and increase the quality of life of
American people; U.S. Supreme Court’s decision on this case can be used to establish that
U.S. Supreme Court firmly uphold the constitution, maintain the image of the rule of law
and establish the image of the Supreme Court as the national anti-corruption center and
the image of the beacon of the rule of law of our nation, envied by the people of the world.
U.S. Supreme Court will inherit and carry forward the wisdom of its predecessors and
ensures that our nation will follow the course of the Constitution.
CONCLUSION
The petition for a writ of certiorari should be granted. “No higher duty rests upon this
Court than to exert its full authority to prevent all violations of the principles of the
Constitution” (Downs v. Bidwell, 182 U.S.244 (1901))

Respectfully submitted,

fife?Date:

6/22/21
40

